                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: 106080022                                                                     Page 1 of 1




           The Office of Investigations-Office of Inspector General (OIG), initiated an investigation due to
           the significant cost-sharing amount projected by an institution' and due to the possibility of
           fraudulent time and effort (T&E) reports supporting cost-sharing for the NSF award.2

           Our investigation found no fraud or improprieties. However, we detected deficiencies in the
           institution's record keeping systems pertaining to cost-sharing. The institution notified the OIG
           of its efforts to require subcontractors to provide supporting documentation for cost-sharing.
           The OIG sent a letter to the institution reminding it of its record keeping obligations and advising
           that it continue to improve its monitoring and record keeping systems regarding cost-sharing.
           Accordingly, no further action is warranted and this case is closed.




                                                                                                       I




                                                                                                           U




      - i                                                                                                  1




 NSF OIG Form 2 ( 1 1/02)
